           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


      COLLECTION OF BACK-UP
          WITHHOLDING
       TAXES FROM VENDORS


      April 2012   A-03-10-11053




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:      April 3, 2012                                                     Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Collection of Back-up Withholding Taxes from Vendors (A-03-10-11053)


           OBJECTIVE
           Our objective was to determine whether the Social Security Administration (SSA) was
           appropriately collecting back-up withholding taxes from vendors and reporting those
           taxes to the Internal Revenue Service (IRS).

           BACKGROUND
           Federal agencies pay billions of dollars each year to vendors for various types of
           services. However, it has been reported that some vendors have failed to report
           income and have accrued billions of dollars in delinquent Federal taxes. Therefore, it is
           critical that the IRS receive accurate informational returns from Federal agencies on
           vendor payments so it can determine whether vendors have paid their taxes.

           Section 3406 of the Internal Revenue Code (IRC) 1 requires that payers withhold
           28 percent of certain payments2 reported on information returns, such as IRS
           Form 1099-MISC, Miscellaneous Income, 3 if a vendor fails to furnish its Taxpayer




           1
            IRC, 26 U.S.C. § 3406; Backup Withholding for Missing and Incorrect Name/TIN(s), IRS Publication
           1281 (Rev. 4-2009, p. 3).
           2
            SSA issues Forms 1099-MISC to vendors for goods or services that total $600 or more in a calendar
           year.
           3
            The Form 1099-MISC is issued to report goods and service payments such as rents, attorney payments,
           and other income payments to the IRS.
Page 2 - The Commissioner


Identification Number (TIN) 4 or if the IRS notifies the payer that the TIN is invalid. 5 In
October of each year, the IRS notifies payers of possible errors included on the Form
1099-MISC submitted for the previous tax year by mailing them a Notice of Possible
Payee Name/TIN Discrepancy (CP 2100 Notice). The Notice is accompanied by a list
of missing, mismatched, and unassigned TINs. 6 The Notice instructs the payers to
compare the list with their records to determine what actions should be taken.

•     For missing TINs, 7 payers are to start back-up withholding immediately and continue
      until the vendor provides the correct name/TIN combination. 8

•     For mismatched TINs, if the payer’s records agree with the list, within 15 business
      days of receiving the CP 2100 Notice, the payer must send a Backup Withholding
      Notice (B Notice)9 along with a Request for Taxpayer Identification and Certification
      (Form W-9) to the payee requesting a correct name/TIN combination. If the payee
      fails to return a signed Form W-9 after 30 business days, the payer should begin
      back-up withholding. Payer’s records that do not agree could be the result of a
      recent update to a payer’s records, an error in the information submitted, or an IRS
      processing error. If an error occurred, the payer should correct its records, if
      necessary.

To further aid Federal agencies in complying with annual information return
requirements, in August 2003, the IRS began sending Federal agencies a Notice for
Federal Government Entities of Tax Identification Number Mismatch (1313 Notice).
This Notice contains the same information included in the CP 2100 Notice and informs
agencies of the need to initiate back-up withholding for any vendor who fails to provide
a valid TIN.




4
  A TIN is an Employer Identification Number (EIN) issued by the IRS or a Social Security number (SSN)
issued by SSA.
5
 The IRS considers a TIN to be invalid if it does not contain exactly nine digits, it has an alpha character
as one of the nine positions, it cannot be found on IRS or SSA files, or the name/TIN combination does
not match.
6
    For a copy of a CP 2100 Notice, see Appendix B.
7
 The IRS considers a TIN to be missing if it is not provided or if it is obviously incorrect. Examples are a
TIN with more or less than nine digits or with a mixture of digits and letters.
8
 In addition, payers are to make up to three solicitations for a TIN (initial, first annual, second annual) to
avoid a penalty for failing to include a TIN on the information return.
9
    For a copy of the notice sent to payers, see Appendix C.
Page 3 - The Commissioner


Central Contractor Registration

Effective October 2003, individuals, businesses, and organizations must register in the
Central Contractor Registration (CCR) 10 database to receive a contract, purchase order,
or blanket purchase agreement from the Government. CCR validates vendors’
information, such as the name and TIN, with the IRS and electronically shares the data
with Federal agencies’ finance offices to facilitate paperless payments through
electronic funds transfer. SSA uses CCR to update its Vendor File, which contains
payment delivery records for vendors who provide goods or services to SSA. SSA uses
the Vendor File to issue the Form 1099-MISC and record each vendor’s banking, TIN,
and address information. Each day, SSA automatically updates the Vendor File through
an interface with the CCR database. 11 However, SSA staff can override certain
information generated from the CCR database to include vendors’ names and TINs.

IRS TIN Matching Program

To help avoid TIN errors and reduce the number of back-up withholding notices, the IRS
developed the TIN Matching Program. Federal agencies that want to participate in the
Program must sign a memorandum of understanding with the IRS. Once Federal
agencies are registered, the Program permits them to verify the TIN furnished by a
payee against the name/TIN combination in the IRS database. Federal agencies can
either submit the name/TIN combination through the TIN matching online interactive
program or by a bulk file. The TIN matching online interactive program provides the
results of up to 25 requests in real time. A bulk file of up to 100,000 TIN match requests
can be processed overnight via a secure mailbox. SSA does not participate in the IRS
TIN Matching Program.

SCOPE AND METHODOLOGY
We reviewed the Forms 1099-MISC that SSA issued for Tax Years (TY) 2008 and 2009
to determine whether the Agency collected back-up withholding taxes, as appropriate,
and reported those taxes to the IRS. 12 As shown in Table 1, for the 2-year period, SSA
issued about 32,400 Forms 1099-MISC, totaling approximately $2.8 billion in payments,
to the IRS.




10
     The Department of Defense manages the CCR database.
11
   SSA automatically updates its Vendor File when vendors update their status, address, or banking
information in CCR. However, changes to the Dun and Bradstreet Data Universal Number System,
name, and TIN require that SSA staff manually update the Vendor File.

12
     See scope and methodology in Appendix D.
Page 4 - The Commissioner


              Table 1: Vendor Payments Issued in TYs 2008 and 2009
                   TYs                   Total Issued              Total Payments(a )
                   2008                       8,302                    $   730,412,998
                   2009                     24,113                     $ 2,055,924,654
                  Total                     32,415                     $ 2,786,337,652
           Note (a): SSA issued payments to State and local government agencies,
           corporations, representatives, and individuals who provided goods or services
           to the Agency. Starting with TY 2009, SSA issued about 15,400 Forms
           1099-MISC, totaling about $1.2 billion, to representatives who requested direct
           payment of their fees.

RESULTS OF REVIEW
Although the IRS had notified SSA that in TYs 2008 and 2009, it issued 1,245 Forms
1099-MISC, totaling $155 million that contained potential invalid name/TIN
combinations, the Agency had not determined whether back-up withholding was
warranted. SSA staff indicated that this occurred because the component responsible
for the back-up withholding procedures did not receive the CP 2100 or 1313 Notices
issued by the IRS. However, the Agency has taken steps to resolve the invalid
name/TIN combinations by contacting the IRS to rectify the delivery notification issue as
well as obtain copies of the CP 2100 Notices issued for TYs 2008 and 2009.

Our review of the 1,245 Forms 1099-MISC found that SSA did not need to initiate
back-up withholdings for 747 vendor payments, totaling about $147.5 million, because
of updates to the vendors’ records and reporting errors. However, the Agency needs to
review the remaining 498 vendor payments, totaling approximately $7 million, to
determine whether back-up withholding is required on any future payments to these
vendors.

SSA DID NOT FOLLOW BACK-UP WITHHOLDING PROCEDURES

The IRS notified SSA that in TYs 2008 and 2009, it submitted 1,245 Forms 1099-MISC,
totaling about $155 million, that contained invalid name/TIN combinations. However,
SSA had not taken the proper steps to determine whether back-up withholding should
have been initiated. Specifically, SSA had submitted 613 information returns in
TY 2008 and 632 in TY 2009 that included mismatched and unassigned TINs. In
addition, 254 vendors appeared on the invalid name/TIN combination list for both years.

                    Table 2: TYs 2008 and 2009 Forms 1099-MISC
                      with Invalid Name and TIN Combinations
              Type of Invalid TIN         TY 2008          TY 2009           Total
                 Mismatched                 567              598             1,165
                 Unassigned                 46               34               80
                    Total                   613              632             1,245
Page 5 - The Commissioner


According to IRS policy, SSA was required to compare the list of invalid name/TIN
combinations with its business records and determine whether the submitted
information matched. If the information matched, SSA was required to request a correct
name/TIN combination from the vendor. If the vendor failed to provide a corrected TIN,
SSA should have initiated back-up withholding on future payments. If the information
did not match, the Agency was to determine whether the invalid name/TIN combination
was the result of a recent update to its records, an error with the information submitted
to the IRS, or an IRS processing error. If it was the result of an error, SSA should
update its records to prevent the mismatch from reoccurring.

However, through discussions with SSA staff, we learned the Agency did not take any
actions to resolve the invalid name/TIN combinations because the component
responsible for back-up withholding procedures was not aware of the mismatches.
While the IRS had mailed notices (CP 2100 and 1313 Notices) to SSA, the notices were
not forwarded to the component responsible to take action. Once we brought this issue
to the Agency’s attention, it contacted the IRS to resolve the discrepancy with the
mailing address to ensure the notices were sent to the responsible components. In
addition, the Agency requested and received copies of the CP 2100 Notices for
TYs 2008 and 2009.

TY 2008 AND 2009 INVALID FORMS 1099-MISC

Back-up withholding is important because the process assists the IRS with ensuring
vendors have paid their taxes. When the name/TIN on an information return is invalid,
the IRS cannot ascertain the correct TIN and therefore cannot detect whether a
taxpayer underreported income or failed to file a tax return. Based on our review of the
1,245 Forms 1099-MISC that contained invalid name/TIN combinations, we determined
that 747 vendor payments, totaling $147.5 million, did not require back-up withholding.


                         Fig u re 1: In va lid Fo rm s 1099-MIS C
                             Is s u e d in TYs 2008 a n d 2009

                                              Updated
                              Tax Exempt       Name          Used Other
                                19 (2%)       35 (3%)          Name
                                                              92 (7%)
                          Review
                          Further
                            498                Purchase
                           (40%)                  Card
                                               Payments
                                                  601
                                                 (48%)
Page 6 - The Commissioner


The 747 vendor payments did not require back-up withholding for the following reasons.

•     19 payments were issued to tax-exempt vendors, and these vendors should not
      have been issued a Form 1099-MISC. For example, we found that SSA issued
      three Forms 1099-MISC, totaling about $41,000, to the Office of Personnel
      Management. The TINs for these vendors should have been included on SSA’s TIN
      Exclude Listing, which would have prevented the issuance of a Form 1099-MISC. 13

•     35 payments did not require back-up withholding because either the vendor
      information was updated after the Form 1099-MISC was issued or a typographical
      error occurred when recording the vendor’s name.

•     92 payments did not require back-up withholding because SSA staff did not include
      the correct legal business name for the vendors on the Forms 1099-MISC as
      required by IRS policy. 14 SSA instructed its staff to import into the Vendor File the
      names of vendors directly from the CCR database when applicable because the IRS
      verifies the data in the CCR database. 15 However, we found that staff’s ability to
      enter a name other than the legal business name caused the invalid name/TIN
      combinations. For example, we found instances where SSA staff entered an
      abbreviated name or a name other than the legal business name for some vendors.
      Therefore, SSA should remind staff to capture the legal business name derived from
      the CCR database when entering a new vendor into the Vendor File.

•     601 payments did not require back-up withholding because they were made using
      purchase cards. Consequently, SSA did not have a mechanism in place to initiate
      back-up withholding for these types of payments. These payments will no longer be
      an issue for the Agency because the IRS issued new guidance, as of January 2011,
      requiring that banks and lending institutions report their transactions to the IRS
      online. 16

For the remaining 498 invalid Forms 1099-MISC from TYs 2008 and 2009, we were not
able to validate the vendor’s information because our access to the CCR database was
limited. 17 As shown in Table 3, these vendors received approximately $7 million in
13
     Accounting Manual Chapter 5-80-05, Processing Miscellaneous Income Form 1099.
14
     IRC, 26 U.S.C. § 6109.
15
  CCR validates the EIN/TIN and the vendor name of each new and updated CCR registrant with the
IRS. SSA has been using CCR since September 2005.
16
  Form 1099-K, Merchant Card and Third Party Network Payments, is new for 2011 and is used to report
payment card transactions made to businesses. The primary filers of this form include banks and
payment settlement entities with a contractual obligation to make payments to merchants (Visa, PayPal,
etc.). The recipients of this form are the merchants receiving the payments.
17
  Since we are not a registered user of the CCR database, we were restricted to use the public version
which limits the amount of personal identifiable information available on vendors. As a result, we were
not able to confirm whether all the vendor information was accurate, such as the vendor’s TIN.
Page 7 - The Commissioner


payments ranging from about $600 to $2.2 million. SSA should review the TY 2010
CP 2100 Notices to determine whether any of the 498 vendors continue to have
name/TIN mismatches. If so, the Agency should send the vendors a B Notice along
with a copy of a Form W-9 to satisfy the back-up withholding requirements. If vendors
fail to provide a valid TIN, SSA should withhold 28 percent of any future payments made
to these vendors.

                       Table 3: 498 Invalid Forms 1099-MISC
                           Issued in TYs 2008 and 2009
                                               Number of
                                              Forms 1099-        Total
                  Range of Payments              MISC          Payments
                    $600 - $49,999                483          $2,513,161
                   $50,000 - $99,999               10           $615,204
                  $100,000 - $149,999              2            $279,604
                  $150,000 - $199,999              1            $162,360
                 $200,000 - $2,199,999             2           $3,653,154
                        Totals:                   498          $7,223,483

We believe the Agency should use the IRS’ TIN Matching Program to verify vendors’
TINs before issuing Forms 1099-MISC. This would help reduce the burden of penalty
assessment and costs associated with mailing a B Notice to vendors. According to SSA
staff, the Agency does not use the TIN matching program because the IRS registration
process does not allow SSA to control who accesses the data and under what
circumstances. However, the Agency is exploring methods of allowing its accounting
system to interface with the IRS’ TIN Matching Program to verify vendors’ TINs. SSA
staff believe this method would allow SSA to control the access of individual authorized
users. For instance, it would allow a transaction record of each TIN matching request to
be archived along with the requestor’s identity.
Page 8 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
SSA submitted 1,245 Forms 1099-MISC to the IRS with invalid name/TIN combinations
for TYs 2008 and 2009. However, we found the Agency did not take steps to determine
whether back-up withholdings was warranted for these vendors. For 747 vendor
payments, we found the invalid name/TIN combinations occurred because of updates to
vendors' records or errors by SSA staff in recording vendor information. The Agency
needs to review the remaining 498 vendor payments to determine whether back-up
withholding is required on future payments to the vendors. In addition, we discovered
that 92 of the invalid name/TIN combinations were a result of SSA staff not capturing
the legal business name from the CCR database. Moreover, we found that SSA was
not taking advantage of the IRS’ TIN Matching Program to ensure vendor information
was accurate before issuing the Forms 1099-MISC. Since the accuracy of Forms
1099-MISC is important to the detection of taxpayer underreported income and/or
unreported tax returns, we believe SSA needs to take steps to improve its Form
1099-MISC procedures.

We recommend that SSA:

1. Review the remaining 498 Forms 1099-MISC and initiate appropriate actions to
   resolve the invalid name/TIN combinations.

2. Remind staff to capture the legal business name derived from the CCR database
   when entering a new vendor into the Vendor File.

3. Continue developing a cost-effective method of automatically verifying vendor
   information with the IRS’ TIN Matching program.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in
Appendix F.




                                        Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Notice of Possible Payee Name/Tax Identification Number Discrepancy
APPENDIX D – First B Notice
APPENDIX E – Notice for Federal Government Entities of Tax Identification Number
             Mismatch
APPENDIX F – Agency Comments
APPENDIX G – OIG Contacts and Staff Acknowledgments
                                                                Appendix A

Acronyms
CCR              Central Contractor Registration

EIN              Employer Identification Number

IRC              Internal Revenue Code

IRS              Internal Revenue Service

OIG              Office of the Inspector General

SSA              Social Security Administration

SSN              Social Security Number

SSOARS           Social Security Online Accounting and Reporting System

TIN              Taxpayer Identification Number

TY               Tax Year

U.S.C.           United States Code

Forms

CP 2100 Notice   Notice of Possible Payee Name/TIN Discrepancy

1313 Notice      Notice of Federal Government Entities of Taxpayer Identification
                 Number Mismatch

Form 1099-K      Merchant Card and Third Party Network Payments

Form 1099-MISC   Miscellaneous Income

B Notice         Backup Withholding Notice

Form W-9         Request for Taxpayer Identification Number Certification
                                                                     Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed applicable Federal laws, Social Security Administration (SSA) policies and
    procedures, and various sections of the Internal Revenue Code.

•   Reviewed prior audit reports from the Government Accountability Office and Office
    of the Inspector General dealing with back-up withholding.

•   Obtained from SSA Tax Years (TY) 2008 and 2009 Miscellaneous Income Forms
    (Form 1099-MISC) issued over $600.

    o For TY 2008, SSA issued 8,302 Forms 1099-MISC payments to recipients.
      Specifically, 1,656 payments were made through the Purchase Card Program
      and 6,646 were made through the Social Security Online Accounting and
      Reporting System (SSOARS) Third Party Payment System and Account Payable
      module.

    o For TY 2009, SSA issued 24,113 Forms 1099-MISC to vendors and direct
      payment representatives. In particular, 1,679 payments were made through the
      Purchase Card Program; 7,018 were made through SSOARS Third Party
      Payment System and Account Payable module; and 15,416 direct fee
      representative payments were made through the Single Payment System.

•   Obtained from the Internal Revenue Service counts for the number of Forms 1099-
    MISC that contained invalid name/Taxpayer Identification Numbers (TIN) for TYs
    2005 through 2009.

•   Obtained a copy of the TYs 2008 and 2009 Notice of Possible Payee Name/TIN
    Discrepancy (CP 2100) data file that the IRS sent to SSA. Specifically, we found
    there were 613 notices for TY 2008 and 632 notices for TY 2009.




                                          B-1
We conducted our audit between October 2010 and December 2011 in Philadelphia,
Pennsylvania. We tested the data obtained for our audit and determined the data to be
sufficiently reliable to meet our audit objectives. The entity audited was the Office of
Financial Policy and Operations, under the Office of the Deputy Commissioner
for Budget, Finance and Management. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.




                                          B-2
                                    Appendix C

Notice of Possible Payee Name/Tax
Identification Number Discrepancy




                     C-1
C-2
                       Appendix D

First B Notice




                 D-1
D-2
                                     Appendix E

Notice for Federal Government Entities of Tax
Identification Number Mismatch
                  Appendix F

Agency Comments
                                         SOCIAL SECURITY
MEMORANDUM


Date:      March 20, 2012                                                          Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Collection of Back-up Withholding Taxes from
           Vendors” (A-03-10-11053)—INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Teresa Rojas at (410) 966-7284.

           Attachment




                                                          F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“COLLECTION OF BACK-UP WITHHOLDING TAXES FROM VENDORS”
(A-03-10-11053)


Recommendation 1

Review the remaining 498 Forms 1099-MISC payments and initiate appropriate actions to
resolve the invalid name/Tax Identification Number (TIN) combinations.

Response

We agree.

Recommendation 2

Remind staff to capture the legal business name derived from the CCR database when entering a
new vendor into the vendor file.

Response

We agree. We will incorporate the reminder into the vendor maintenance policy and procedures.

Recommendation 3

Continue developing a cost effective method to automatically verify vendor information with the
IRS’s TIN Matching program.

Response

We agree.




                                              F-2
                                                                         Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Cylinda McCloud-Keal, Director, Philadelphia Audit Division

   Carol Madonna, Audit Manager

   Virginia Harada, Audit Manager

Acknowledgments

In addition to those named above:

   Frank Trzaska, Senior Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-03-10-11053.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
